State ofNew York
Court ofAppeals
Decided and Entered on the
seventh day of May, 2020
Present, Hon. Janet DiFiore, ChiefJudge, presiding.
Mo. No. 2020-30
Stephanie Olson,
Respondent,
v.
David Olson,
Appellant.

Appellant having moved for leave to appeal to the Ccnnt ofAppeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is dismissed upon the ground that the order sought to
be appealed from does not finally determine the action within the meaning of the
Constitution.

John P. Asiello
Clerk of the Court

O

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
INTEGRATED DOMESTIC VIOLENCE PART
X
STEPHANIE OLSON,

Index No. 350024/2013
Plaintiff,

ORDER ASSIGNING
COUNSEL PURSUANT TO
JUDICIARY LAW
SECTION 35(8), ETAL.

- vs. -

DAVID OLSON,
Defendant.
■X

HON. TANDRA L. DAWSON, J.S.C.
Person to be represented: David Olson, Defendant.
With due regard to the nature of this proceeding, the Court has determined that
the appointment of independent counsel to the above-named person will serve the
furtherance of justice, pursuant to the provisions of the Domestic Relations and Judiciary
Law, to represent defendant in the above-captioned action, in connection with Plaintiffs
contempt motion (mot. seq. 23) next scheduled to be heard on February 11, 2020, at 9:30
AM in Part IDV of the Supreme Court of the State of New York, New York County,
located at 100 Centre Street, Room 1604, New York, New York 10013.
Accordingly, it is
ORDERED, that the attorney whose name appears below has been designated by
the Court to this end, and is hereby assigned to represent such person in this proceeding
and shall be compensated as provided by law pursuant to Judiciary Law Section 35(8),
Family Court Act Section 262, and County Law Section 720:

(/}

V

\

p I Jr z )

Counsel Assigned: Bruce Yerman, Esq.
Office Address: 160 Broadway, 4lh Floor, New York, NY 10038
Telephone: 646-613-0290
Email: bruce@yermanlaw.com
and it is further
ORDERED, that counsel shall contact Plaintiff Pro Se to prepare for the
appearance; and it is further
ORDERED, that a copy of this Order shall be filed with the Office of the
Attorney for Children, Supreme Court of the State of New York, Appellate Division,
First Department, 41 Madison Avenue, 39th Floor, New York, New York 10010; and that
a copy of this Order shall be attached to a request for payment for attorney services.

Dated: January 8, 2020
Hon. Tandra L. Dawson, J.S.C.

jjuii. JANDRA L DAWSOH

